DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


    Independent Auditor's Report on

   U.S. Coast Guard's FY 2008 Mission

              Action Plans

                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528



                                                                       Homeland
                                                                       Security

                                      July 9,2008

                                      Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

The attached report presents the results of the U.S. Coast Guard's fiscal year 2008 Mission Action
Plans audit. We contracted with the independent public accounting firm KPMG LLP (KPMG) to
perform the audit. The contract required that KPMG perform its audit according to generally
accepted government auditing standards. KPMG is responsible for the attached independent
auditor's report and the conclusions expressed in it.

The recommendations herein have been discussed in draft with those responsible for implementation.
It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner
                                      Inspector General
                               KPMG LLP                                   Telephone 2025333000
                               2001 M Street, NW                          Fax       202 533 8500
                               Washington, DC 20036                       Internet  www.us.kpmg.com




February 22, 2008


Ms. Anne Richards
Assistant Inspector General for Audit
Department of Homeland Security, Office of the Inspector General
Mr. David Norquist
Chief Financial Officer
Department of Homeland Security:


This report presents the results of our work conducted to address the performance audit objectives relative
to the Department of Homeland Security's (DHS or the Department) Mission Action Plans (MAPs)
developed to address the internal control deficiencies at the U.S. Coast Guard (USCG). These
deficiencies were identified by management and/or reported in the KPMG LLP (KPMG) Independent
Auditors' Report included in the Department's fiscal year 2007 Annual Financial Report (FY 2007
Independent Auditors' Report).

This performance audit is the second in a series of four performance audits that the Department's Office
ofInspector General (OIG) has engaged us to perform related to the Department's fiscal year 2008 MAPs
for use in developing the Department's Internal Controls Over Financial Reporting Playbook (ICOFR
Playbook). This performance audit was designed to meet the objectives identified in the Objectives,
Scope, and Methodology section of this report. Our audit procedures were performed using draft MAPs
provided to us between November 30,2007 (FBwT and Entity Level Controls); and December 31,2007
(IT integration). Interviews with DHS and USCG management and other testwork, was performed at
various times through February 11, 2008, and our results reported herein are as of February 22, 2008.

We conducted this performance audit in accordance with generally accepted government auditing
standards (GAS). Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings based on
our audit objectives.

The performance audit did not constitute an audit of financial statements in accordance with GAS.
KPMG was not engaged to, and did not, render an opinion on the Department's or USCG's internal
controls over financial reporting or over financial management systems (for purposes of Office of
Management and Budget Circular No. A-I27, Financial Management Systems, July 23,1993, as revised).
KPMG cautions that projecting the results of our evaluation to future periods is subject to the risks that
controls may become inadequate because of changes in conditions or because compliance with controls
may deteriorate.
TABLE OF CONTENTS

EXECUTIVE SUMMARY                       ~        2
BACKGROUND                                       4
OBJECTIVE, SCOPE, AND METHODOLOGy                5
FINDINGS AND RECOMMENDATIONS                ,    7
MANAGEMENT RESPONSE TO OUR REPORT               10
KEY DOCUMENTS AND DEFINITIONS                   11




                                    1
EXECUTIVE· SUMMARY

The Department of Homeland Security (DHS or the Department) has identified weaknesses inintemal
control over financial reporting through its annual assessment conducted pursuant to Office of
Management and Budget (OMB) Circular No. A~123, Management's Responsibility for InternalControl,
and compliance with the Federal Managers' Financiallntegrity Act (FMFIA). Some deficiencies are
material weaknesses identified by DHS' external financial statement auditor. Beginning in 2006,the
Department launched a comprehensive corrective action plan to remediate known internal control
deficiencies... The plan is documented in the Internal Controls Over Financial Reporting. Playbook
(ICOFR Playbook). The Mission Action Plan (MAP) isa key input to the ICOFR Playbook that
documents the remediation actions planned for each control deficiency at theDHS component level. The
MAP provides specific actions, timeframes, key milestones, assignment of responsibility,. and the timing
of corrective action validation.

The objective of this performance audit was to evaluate and. report on the status of the detailed MAPs
prepared by the United States Coast Guard (USCG) to correct internal control deficiencies over financial
reporting. We conducted our audit in accordance with the standards applicable to such audits contained
in the GovermnentAitditing Standards, issued by the Comptroller Generalofthe United States. Our audit
was performed using specific criteria, to assess the process used by the USCG, and to evaluate the MAPs
submitted by USCG to the DHS Chief Financial Officer to be included in the 2008 ICOFR Playbook.

The evaluation criteria were developed from a variety of sources-including technical guidance published
byOMB,the Government Accountability Office, and applicable laws and regulations. We also
considered DlIS' policies and guidance, and input from the Office ofInspector General when designing
evaluation criteria. Our evaluation criteria are:
    L	 Identification (of the root cause) - Identification of the appropriate underlying problem or root
        cause of the internal control deficiency condition(s).
    2.	 Development (of the MAP)- Clear action steps that address the root cause, with attainable and
        measurable milestones at an appropriate level of detail.
    3.	 Accountability (for execution of the MAP) - The individual MAP owner is held responsible for
        its successful implementation, ensuring that milestones are effectively and efficiently achieved
        andthat the validation phase is completed.
    4.	 Verificatiqnand validation--' The MAP; includes written procedures to verify successful
        implementation of the MAP, a means to track progress throughout the MAP lifecycle, and
        reporting results when complete.

We noted that the USCG has prepared MAPs that address the control deficiencies over Fund Balance with
Treasury (FBwT); Entity-Level Controls; and Information Technology (IT) Integration. However, we also
notedare~swhere the MAPs could be improved. Specifically, we ttotedthat arnore thorough analysis
should be performed to identify the underlying problem that created the control deficiencies. Theroot
cause analysis should .include consideration .of the relevant detailedpr()cesses, humanresources,andlT
systems. The analysis should be expanded. to consider interdependencies with other processes, and
control deficiencies, and corrective actions should be cross-referenced with management assertions at the
financial statement level to ensure thatremediation is most effective.

Insome cases, the MAPs. did notincJude specific corrective.actions, with incremental milestones that are
attainable, measurable, and verifiable, over a realistictimeframe. The MAPs lacked an appropriate level
ofdetail to enable independent analysis ofthe effectiveness of the MAPs in remediatingrootcauses and
providing users with insight on the period status of the MAP implementation.                          .




                                                   2
The USCG lacks a comprehensive plan for verification and validation of MAP results that can be used to
monitor and report results. Further, the verification and validation procedures that are included in the
MAPs are not clearly linked to the Department's OMB CircularA-123 initiatives currently underway.
We recommended thatthe USCG revise its MAPs to address theseconcems. We are also recommending
thatthe USCG develop an "end state" model for each defined process, including taking any future
Department system baseline and support for financial reporting assertions, laws & regulations, and
accounting standards into consideration. They should then compare the current processes with the
identified control and process deficiencies and root Causes to the "end state" model to develop specific,
actionable, and measurable project plan steps linked to supporting the financial reporting. assertions and
complying with laws and regulations and accounting stcmdards.




                                                    3

BACKGROUND

The Department of Homeland Security (DRS or the Department) and the United States Coast Guard
(USCG) recognize that deficiencies in internal control over financial reporting exist The internal control
deficiencies are reported by DRS management in its annual Secretary's Assurance Statements, issued
pursuant to Office ofManagement and Budget (OMB) Circular No. A-123, Management'sResponsibility
for Internal Control. The Secretary's Assurance Statement and the findings of the external auditor are
reported in Department's fiscal year 2007 Annual Financial Report (AFR). The conditions causing the
control weaknesses are diverse and complex. Many conditions are systemic, inherited with legacy
financial processes and IT systems at the time oftheDepartment's formation in 2003; The evolution of
the Department's mission, programs,component restructuring, and other infrastructure changes has made
remediation of these control weaknesses very challenging. To meet this .challenge, the Department's
Secretary, Chief Financial Officer and financial management in the DRS components have adopted a
comprehensive strategy to implement corrective actions beginning in fiscal year (FY) 2007 and
continuing inFY 2008.

The DRS Office ofthe Chief Financial Officer (OCFO),Internal Control Program Management Office
(ICPMO) is primarily responsible for the development and implementation of the Department's strategy
to implement corrective action plans. The ICPMO has documented its strategy and other related plans to
remediateidentified internal control deficiencies in the Internal Controls Over Financial Reporting
Playbook (ICOFRPlaybook).

In 2006, the Department issued Management Directive 1030, Corrective Action Plans, and the
Department enhanced its existing guidance by issuing the Mission Action Plan Guide, Financial
Management Focus Areas Fiscal. Year 2008 (MAP Guide). In accordance with the MAP Guide, the
Depar~mentand thecomponentscieyeloped Mission Action Plans (MAP)Jhatdescribes the corrective
actions to be implemented. The Deparlment continued to utilize Electronic Program Management Office
(ePMO), a Web-basedsoftware applicalion, to manage the collection and reporting of MAP information.

The MAP Guide is applicable to all Department components, including USCG, .and outlines the policies
and procedures necessary to develop fiscal year 2008 Department MAPs. All components were required
to submit MAilS, or MAP updates, for any new or existing internal control deficiencies over financial
reporting, identified by management or the external auditors, for inputinto to the fisc.al year 2008 ICOFR
Playbook.

To comply with Management Directive 1030, and the MAP Guide,· the USCG adopted the Financial
Strategy for Transformation and Audit Readiness (FSTAR)· initiative. . With the support of the
Department, the USCG I FSTAR prepared tmeedetailed MAPs for fiscal year 2008, related to the internal
control deficiencies over FBwT; Entity-Level Controls; and IT Integration reported as or contributing to
material weaknesses in the 2007 IndependentAuditors' Report, which are summarized below:
    •	 Financial Management and EntityLevel Controls- USCG has not fully implemented an effective
       financialmanagementorgadizationa,l··structure. It has .significant weaknesses .in financial
       management oversight that hindered its ability to prepare accurate, complete, and timely financial
       information.               .
    •	 Fund BalancewithTreasury -. USCG did nothave effective.controls or supporting documentation
       thatvalidated .the accuracy of all of its FBwT. balances, reconciliations, and clearing of suspense
       items. Ifdidnot have an· effective . process for accounting for. suspense account transactions
       relatedto FBwT. The USCG was unableJo provide validated military and civilian payroll data to
       support payroll transactions processed through the USCG's FBwT.



                                                    4
    •	 FinanciaL Reporting: IT Integration - USCG's financial reporting material weaknesses include
       control deficiencies related to IT Integration. The USCG has not developed and· implemented an
       eftectivegeneralledger system. Its financial and mixed IT systems are not sufficiently integrated
       and are significantly noncompliant. with the requirements ofthe Federal Financial Management
       Improvement Act.

Conditions existing at the USCG contributedto all Department material weaknesses in internal control
over financial reporting, reported in FY2007 (seyen in total). However, to focus its attention and
resources, the USCG has limited its MAPs to the three weaknesses described above. MAPs to correct .the
remaining four material weaknesses,e.g., IT systems security, capital assets, liabilities, budgetary
accounting, and other conditions affecting financial reporting, will be developed by USCG's Financial
Strategy for Transformation and Audit Readiness (FSTAR) later in FY2008 or beyond.

OBJECTIVE, SCOPE,AN"D METHODOLOGY

Objectives
The objective ofthis performance audit was to evaluate and report on the status of detailed MAPs
prepared by USCG to correct internal control deficiencies over financial reporting. Our evaluation was
performed using specific criteria,described in the Methodology section below, to assess the process used
to .develop and document USCG's FY 2008 MAPs.. We did not evaluate the outcome of the MAP
process, or any corrective actions taken by management during our audit,and our findings should not be
used to project ultimate results from the MAP implementation. Recommendations are provided to help
address findings identified during our performance audit.

Scope
The scope of this performance audit includes USCG's FY2008 MAPs developed to address the FBwT;
Entity-Level Control; and IT Integration control weaknesses at the USCG as reported in the Secretary's
FY 2007 Assurance Statement, and in the FY 2007 DHS Independent Auditors' Report. TheMAPs
subjected to our evaluationwere provided by the OCFO, on behalf of the USCG, between November 30,
2007 {FBwT and Entity Level Controls);.· and December 31, 2007 (IT integration). The scope of this
performance audit did not include procedures on any of the MAPs associated with other control
deficiencies existing at USCG as reported in the FY 2007 Independent Auditors' Report. Our audit was
performed between January 4,2008 and February 11, 2008, and our results reported herein are as of
February 22,2008.

Metbodology
We conducted this performance audit in accordance with the standards applicable to such audits contained
in. the Government Auditing Standards, issued by the· ComptroUerGeneral of the United States. Our
methodology consisted ofthe following four-phased approach:
PhaseI- Project Initiation and Planning - We attended meetings with the Department's Office of
Inspector General (OIG), OCFO,and USCG to review the, performance auditobjectiyesand scope,
describe our audit approach,communicate data requests,. and gain an understanding of the statuso[ USCG
2008 MAPs.
Phase II - Data Gathering- We performed interviews with accounting and finance management and
staffat USCG andOCFO. Through these interviews,we gained an understanding of the process used to
develop the MAPs" including key inputs and data used, assumptions made, and reasons for conclusions
reached. The interviews focused on theanalysispertormed byUSCG to identify the underlying problems
creating the internalcontrol weakness (root cause), the planned corrective actions, the critical milestones
chosen for measurement, and the methods used to monitor and validate progress in meeting the
milestones. We discussed USCG's resourceaUocationstrategyemployed in the development and



                                                    5
eventual implementation of the MAPs, including ,the utilization of contractors to supplement staff as
needed and the use of specialists, if necessary. We conducted meetings with the Department's OIGto
identify and agree to the criteria used to evaluate the status of the MAPs (as defined below).
We performed reviews of key documents and supporting information provided to us. Our documentation
reviews included:
    •	 The three USCG MAPs (i.e., the MAP Detail and Summary Reports) that were included within
        our scope,and'any underlying supporting documentation provided by USCG.
    •	 The Notice of Findings and Recommendations (NFRs) issued during. the FY 2007 financial
        statement audit by the external auditors that supported the internal control findings reported in the
        FY 2007 Independent Auditors' Report.
    •	 Information provided by USCG management regarding the allocation of resources related to all
        MAPs, including the utilization of contractors.
    •	 The Annual Component Assurance statements provided pursuant to the requirements of OMB
        Circular No. A-123.
    •	 The ICOFR Playbook, MD 1030, the MAP Guide, draft USCG FSTAR Standard Operating
        Procedures (SOPs), and existing internal control monitoring guidance {e.g., OMB Circular
        No. A-123).
Phase III '- Analysis Using Established Criteria ~ Our evaluation criteria were developed from a variety .
of sources including technical guidance published by. OMB(e.g., Circular No. A·123) and the
Government Accountability Office (e.g., Standards for Internal. Control in the Federal Government), and
applicableFed~rallaws and regulations (e.g., Federal Managers' Financial Integrity Act of 1982). We
also considered DRS' policies and guidance, such as the MAP Guide and the ICOFRPlaybook, and input
from the OIG. Our evaluation criteria were:
    1.	 Identification (oftheroot cause)-Identification of theappropriate underlying root cause that is
        causing the internal control deficiency. Acomprehensiveallalysis typically includes a full
        assessment of the business processes, data flows, and information systems that drive the
        transactions/activities associated with the accounting process where the internal control
        deficienCies are believed to exist. A thorough root cause analysis should include:
        a) Research to discover why, when, and ):low the condition occurred - what went wrong and
            why?
        b) Investigation to determine if the problem is procedural or human resources or both
            (processes,and lor people).
        c) An evaluation to determine iflT system functionality is contributing totheproblem,and iflT
            system modifications could be part of the remediation;
        d) An evaluation of internal controls, including the existence of compensating controls that may
            mitigate the deficiencies.
    2.	 Development (oftheMAP) --'- The MAP includes action steps that addressthe root cause, and
        attainable and measurable milestones at an appropriate level ofcietaiL Milestones should enable
        independent analysis of a MAP's effectiveness·. in remediatingroot causes, and provide MAP
        users withillsighton thestatusofthe MAP's implementation. For example, they enable a userto
        determine if the appropriate level of resources to execute a milestone is available and identify
        potential gaps in milestones (e.g. a contractor may need to be hired before a specific milestone
        can be achieved);
    3.	 Accountability{for executionofthe MAp)- Accountability for the MAP is clearly identified and
        assigmJd. The individual· MAP owner is responsible for its successful· implementation, ensuring
        that milestones are achieved, and validation of results.
    4.	 Verification and Validation -The MAP includes writtenprocedtires"that verify successful
        implementation of the MAP, provide a means to track progress· throughout the MAP Jifecycle,



                                                     6
         and require reporting results when complete. These activities should include documentation
         reviews, work observations,andperformancetestingthatis maintained for internal OMB Circular
         No. A-123 review and external audit.
Phase IV ~ Findings and Recommendations - After conducting our Phase III procedures and applying the
evaluation criteria to the MAPs, we" formulated our findings and recommendations. The findings
represent areas for potential improvement that could negatively affectUSCG,s remediation of the control
deficiencies if the MAP isperformedas designed.

FINDINGS AND RECOMMENDATIONS

The findings and recommendations described below resulted from procedure; we peiformed on the MAP
documentation provided on January 4, 2008 and do not reflect any subsequent enhancements and
changes made to the documentation. We have not performed testwork over the nature and extent of any
modifications madesubsequentto our review and the findings and recommendations detailed below are
not reflective ofany changes.

Findings
We categorized our findings by evaluation criteria.

Identification                       .     .                      .                        .

Our observations and comments related to the identification criteria of the USCG MAps are consistent

across each ofthree MAPs -FBwT, Entity,level controls, and IT Integration. We noted that:

    •	   The root causes identified were often generally defined, e.g., "Coast Guard has not designed a
         comprehensive, integrated accounting IT system to comply with the FFMIA system requirements
         andthe USSGL atthe transaction level." We also noted that the root cause was often listed as a
         condition or symptom of the problem, e.g" "Personnel Service Center (PSC) was not informed of
         the recurring reclassification entries that the finance center (FINCEN) manually processes due to
         errors in the interface file."

    •	   Evidence of an in-depth root caUSe analysis, including supporting information, and personnel
         consulted, was not created or maintained, preventing supervisory review, and independent
         corroboration of conclusions. USCG personnel indicated that root causes were determined by
         review of the Notice . of Findings and Recommendations issued during the DRS financial
         stalementaudits, the. documentation developed and control.· gaps identified during theA-123
         assessmentproject,llnd . conSensus reached through discussions between key USCG process
         owners.      Consequently, we were unable to substantiate that the USCG performed an
         investigation to identify.the .underlying. problem, and conducted their assessment of the. business
         processes,data flows,and information systems that drive the transactions/activities associated
         withthe control deficiencies and material weakllesses.

    •	   Critical interdependencies are not identified.. Forexample, to successfully implementtheFBwT
         MAP, and remediate the FBwT material weaklless, .it may benecessaryJorUSCG to meet
         milestones and correctunderly~ng conditions identified hi other MAPs related to human resources
         and payroll, payment management, budgetary resource management,entity~level controls and/or
         the IT prOcesses. However, the FBwT MAP does. not illustrate these potential interdependent
         milestones or indicate how they may affectthe successful implementationoftheFBwT MAP.

    •	   The conditions identified in the issue description sections onhe MAps do not clearly link or
         crosHeference to audit findings and the material weakllessconditions identified in the
         Independent Auditors'Report,making it difficult to determine if all of the conditions supporting
         controlweakllesses have been considered and are addressed in the MAPs. In certain instances,



                                                      7
         the conditions described in the "Issue Description" section ,of the three MAPs do not clearly
         articulate the conditions and the severity of such conditions and how they impact the ability of
         management to support its financial reporting assertions. If the issues are not accurately
         described, USCGrisks not being able to conduct comprehensive root cause analysis and develop
         effective MAPs.

Development
Our observations and comments related to the development criteria of the USCG MAPs are consistent
across each of three MAPs -FBwT, Entity-level controls, and IT Integration. We noted that:
    •	   The MAPs lack specificity - The MAPs include general steps such as, "conduct analysis of IPAC
         and other significant Classes of transactions," "Develop and promulgate operational objectives for
         internal control," "develop and implement standardized 'payment confirmation process," and
         "Implement monitoringlenforcementbased on process/procedures defined," which are broad
         objectives, and usually not measurable.
    •	 The current MAP milestones are not linked directly to the financial statement assertions affected
       by the control weaknesses. As a result, the succ.essful completion of the milestones may not fully
       address the appropriate financial assertions and achieve the desired result of correcting the
       existing internal control deficiencies.
    •	   Some MAPs defer the development of the detailed MAP project plan and milestones. For
         example, the Entity-level control MAP includes a task to '''develop detailed project plan &
         resourcing assessment to conduct workforce analysis on financial management organizational and
         internal ccmtrol strategy, structure,and processes" by September 1,2008.

Accountability
Our observations and comments related to the accountability criteria of the USCG MAPs are consistent
across each of three MAPs - FBwT, Entity-level controls, and IT Integration. The USCG properly
identifies a responsible party for theMAPs,and the USCG designee in-charge of each MAP. As such,
accountability for the MAP implementation is specified.
The USCG is currently evaluating its human and otherresource necessary to implement the MAPs. The
MAPs and. the draft FSTAR SOP state, "no funding willbe applied to a task without a vetted, approved
project plan" however, project plans have not been developed or completed, In accordance with its
policy, the MAP will need to be approved before funding is provided and resources acquired. Delaysin
finalization of the plan and acquisition of resources could affect the timely completion ofplanned actions
in FY2008.

 Verification and Validation
.Our observations and comments related to the, verification and validation criteria of the USCG MAPs are
 consistent across each ofthree MAPs - FBwT, Entity-level controls, and ITIntegration. We noted that:
    •	   Some key milestones in the MAPs contain steps that are not measurable or designed with
         incremental objectives. USCG has identified various critical milestones within each of the three
         MAPs, however they are often defiged without a degree of specificity that would allow
         measurement. For example, we noted many milestones are achieved through confirmation of
         progress frorn the task owner. Confirmation of milestone completion is not a feasible
         measurement method,' as achievement of a critical' milestone should be measured using concrete
         evidence demonstrating, that, the task is complete. , The difficulty in implementing, a feasible
         measurement method for all, critical' rnilestonescould stem from the lack of detailed, actionable
         steps.




                                                     8
   •	   Many milestones are based on passage of time. Per the MAP Guide, "In the event that a MAP has
        a gap between any milestones (including the initial and final milestones} greater than or equal to 2
        months, the Component must include interim milestones for that timeframe to ensure quarterly
        progress and results can be determined."
   •	   While a contractor has drafted and provided to USCG for review, a set of operating procedures to
        monitor the progress of the MAP, the USCG has not adopted a comprehensive verification and
        validation plan to monitor the progress of the MAP. In addition, USCG has not implemented a
        mechanism to monitor its progress in meeting MAP milestones.

Recommendations
We recommend thatthe USCG perform the following to address our findings.
   1.	 Review each MAP, complete a thorough root cause analysis.            When finished, the root cause
       analysis should:
            a.	 Identify the problem causing the internal control weakness, including how it occurred,
                when, and why. Current policies and procedures, human resources, and how IT systems
                affect the conditions should be considered;
            b.	 Identify and show consideration of all significant interdependencies, with overlapping
                processes and other MAP's. Perform process/sub~processanalysis at a detailed activity
                ortransaction level to identify all control and process deficiencies. This analysis should
                include a walkthrough or "test drive" of the. activity/process flow with actual data or
                transactions. This facilitate enable the USCG's ability to develop comprehensive MAPs
                that include potential interrelationships between processes or other MAPs;
            c.	 Be prioritized for correction,. to minimize duplication of effort where corrective actions
                overlap (I.e., correction of IT system posting logic errors may resolve lllultiple issues, or
                mitigate the need for process changes); and
            d.	 Be documented with sufficient level of detail to provide an adequate understanding of
                control and process deficiencies, how the deficiencies affect the financial reporting
                assertions,laws and regulations, and accounting standards, and enable a MAP user to
                prioritize the conditions based on their severity. Maintain documentation supporting the
                analysis for management review, OMB CircularA-123 cross-reference and external
                auditor review.
   2.	 Modify the MAPs based on the analysis performed in #1 above. Each MAP should include
       specific corrective actions,. avoiding general steps. Link or. cross-reference the conditions
       identified in the issue description sections of the USCG MAPs to the material weakness
       conditions identified in the FY 2007 Independent Auditors' Report, to ensure reconcile the
       conditions identified in the FY 2007 Independent Auditors' Report to actions in the MAPs.
       Matrix the MAPs to the specific financial statement assertions that are affected by the control
       weaknesses being identified to ensure coverage of all key management assertions.
   3.	 Each MAP should include incremental milestones that are attainable, measurable, and verifiable,
       at an appropriate level of detail to enable independent analysis of a MAP's effectiveness in
       remediatingroot causes and provide MAP users with insight on the status orthe MAP's
       implementation. Ensure that MAP milestones and implementation schedules are realistic given
       USCG funding constraints. Avoid usingmilestones that are met simply by passageoftime.
   4.	 Develop acomprehensivepla.n for verification and validation of MAP results that can be us~d to
       monitor and report results. Link the verification procedures to the OMB Circular A"123
       initiatives of the Department. Ensure that the objective of the verification and validation process




                                                     9
       as described in the .draft FSTAR SOP is to determine whether the remediation action was
       successful in supporting the relevant financial reporting assertions and/or compliance with laws
       andregulations and accounting standards;
   5.	 Include the development ofan "end state" model for each definedprocess, including taking future
       Department systems baseline and support for financial reporting assertions, laws and regulations,
       and accounting standards into consideration.. The end state model should account for the entire
       business process or life cycle from initiation through to completion (e.g. often'the recording and
       reporting activities in a trans~ctional process). Then compare the current processes with the
       identified control and process deficiencies and root causes to the end state model to develop
       specific, actionable and measurable projectplan steps linked to supporting the financial reporting
       assertions and complying with laws and regulations and accounting standards.
   6.	 Ensure that the USCG MAP owners have the support necessary to successfully implement the
       MAPs.

MANAGEMENT RESPONSE TO OUR REPORT

Management has prepared an officialresponsepresented as a separate attachment to this report.
In sutnmary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit management's response and, accordingly, we express no
opinion on it.




                                                  10

KEY DOCUMENTS AND DEFINITIONS

This section provides key definitions and documents for the purposes of this report.

TheFederal Managers' FinanciallntegrityAct (FMFrA) requires that Executive Branch Federal agencies
establish and maintain an effective internal control environment accordingto the standards prescribed by
the Comptroller General and specified in the Government Accountability Office's (GAO) Standardsfor
Internal Control in the Federal Government. In addition, it requires that the heads of agencies to
anmIally evaluate and report on the effectiveness of the internal control and financial management
systems.

GAO's Standards forlnternal Control in the Federal Government(Standards) defines internal control as
an integral component of an organization's management that provides reasonable assurance of:
effectiveness and efficiency of operations, reliability of financial reporting, and compliance with
applicable laws and regulations.

The Department arHomeland Security Financial AccountabilitvAct (the DRS FAA) designates the
Department'sChief Financial Officer (CFO), under the authority of the Secretary, as the party responsible
for the design and implementation of Department-wide internal controls. Furthermore, the DRS FAA
requires that a management's. assertion and an audit opinion of the internal controls over financial
reporting be included in the Department's anllual Pelformance and Accountability Report.

Office of Management and Budget(OMB) Circular No. A-123, Management's Responsibility for
Internal Control. provides guidance on internal controls and requires agencies and Federal managers to
1) develop and implement management controls; 2) assess the adequacy of management controls;
3) identify' needed improvements; 4) take cqrrespondingcorrective. action; and 5) report . annually on
management controls. The successful implementation of these requirements facilitates compliance with
both FMFIAand the DRS FAA.

Office of. Management and Budget COMB) Circular No.. A-127, Financial Management Systems,
prescribes policies and standards for executive departments and agencies to follow in developing,
operating, evaluating, and reporting on financial management systems. The successful implementation
of these requirements facilitates compliance with both FMFIAand the DRS FAA.

Internal Control Deficiencies - AcontroLdeficiency exists when the design or operation of a control
does not allow. management or employees, in the normal course ofperfonning their assigned functions,
to prevent or detectmisstatements ona timely basis. A significant deficiency is a control deficiencY,or
combination of control deficiencies, that adversely affects DRS" ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of DRS' financial
statements thatismotethan inconsequential will not be prevented ordetectedby DRS' i,nternal control
over financial reporting. Amaterial weakn,ess is a significant deficiency, orcombiilation of significant
deficiencies, .that results in more thana remote •likelihood that a material misstatement of the financial
statements will not be prevented or detected by DRS' internal control.

Management Directive (MD) 1030, CarrectiveAction Plans, establishes 'the "Department's vision and
direction on the roles, and responsibilities for developing, maintaining,. reporting,. and monitoring MAPs
specific to the DHS Financial Accountability Act, FMFlA, and related OMB guidan,ce." In additionto the
roles and responsibilities,MDl030 outlines the policies and procedures related to the MAP process. The




                                                    11

organizational structure detailed m MD 1030 encompasses employees at both the component and
department levels.

The Internal Controls Over Financial Reporting (lCOFRI PlaybookCICOFR Playbook) was developed
by theOCFO, Internal Control Program Management Office, to assist the Department in meeting the
financial accountability requirements outlined in the DHS FAA. The ICOFR Playbook outlines the
Department's "strategy and process to resolve materialweaknesses and build management assurances."
On an annual basis, the ICOFR Playbook is updated by th~ OCFO to enhance its exitingguidance, as
necessary, and establish milestones, which will be monitored by the OCFO throughout the year. A
component of the ICOFR Playbook is MAPs developed by the Department and its components to correct
internal control deficiencies.

The Mission Action Plan Guide. Financial Management FocusAreasFiscal Year 2008 (MAP Guide}
outlines the policies and procedures to be used to develop MAPs throughout DHS,pursuant to the roles
and responsibilities established by the DRS Management Directiv'e(MD) 1030, Corrective Action Plans.
The MAP Guide applies to all Department Components and Offices (e.g.,OFM) where a control
deficiency has been identified.. Note non-conformances related to the Federal Information Security
Management Act (FISMA), are under the purview· of the· Department's Chief Information Security
Officer's Plan ofAction and Milestones (POA&M) Process Guide.

Electronic. Program. Management Office (ePMO) is a Web-based software application the OCFO
deployed to manage the collection and reporting ofMAP information.

Mission Action Plans (MAPs), as defined in the MAP Guide, are documents prepared to facilitate the
remediation of internal control deficiencies identified by. management or by external parties. MAP
documentation,. as described in detail in the MAP Guide,. inclUdes a MAP Sutnmary Report and a MAP
Detailed Report that are required to be subniitted to the OCFO throughePMO. Below are brief
descriptions ofthe MAP Summary and MAP Detailed Reports, based on the ePMO MAP Reports Quick
Guide contained in the MAP Guide:                                                       .

   •	   TheMAP Summary Report contains sections to describe the issue (e.g. internal control deficiency
        conditions), results of the root cause analysis performed, relevant financial statement assertions
        affected by the issue,key strategies and performance measures, resources required, an analysis of
        the risks and impediments as seen by management, verification and validation methods, and the
        critical milestones. to be. achieved.
   •    The MAP Detailed Report provides additional data on the milestones, not only on those identified
        as critical but also those sub-milestones under a critical milestone. For each milestone (critical or
        sub), the following data is reflected: due date, percentage of completion, status (e.g., Not Started,
        Work in Progress and Completed), and the responsible and assigned parties.

The Department's Annual Financial Report (DHS AFR) was issued onNovember 15, 2007 and consists
of the Secretary's Message, Management's Discussion andAnalysis, Financial Statements and Notes,an
Independent Auditors' Report, Major Management Challenges, and otherrequired information. The AFR
was prepared pursuant to OMB Circular No. A-136, Financial Reporting Requirements.               .




                                                     12
••• ,-,   ,   ,.... ••   •    • •••••••• ~~ ••• ~ ••• ~   l.~ ,_   .




                             U~S.Departmlimto~f
                                            •                                          .    Commandant	
                                                                                            United States Coast GUard
                                                                                                                            2100 Se<:ondStreet,$.W.
                                                                                                                            Wallhfngt(ll'\,OC2QS9a.0001
                             H.OlllO.I.J.O.d. $!I".IlIy. . . . • .•. . .•. .•.•        ·	                                   staff Symbol:C;G-S5
                             Unlt$d St.ate.                            ..       ...	                                        Phone: (202)· 372·:m7
                             CoastGuard                                     .                                               Elmall; I$kundayo.G.Faux@lJSeg.mll


                                                                                                                            7000

                                                                                                                                MAY I' 2008
                             MEM~c:UM                                                                                                                            I

                             From:	 RD,ML I<.eith Taylor                                                         Reply to    CO..85                              I
                                    Assistant·Commandant f01' Resources                                          Attn of:    CAPTE.a.Faux
                                    and Chief FinMcialOfflcer
                                    U. S, Coast Guard (USCG)
                                                                                                                             (202) 372~3717                      i
                             To:	   Anne L. Richards
                                    AssistMt Inspector General for Audits
                                    Department ofHomeland Security (DHS)
                                                                                                                                                                 I

                                                                                                                                                                 I

                                                                                                                                                                 i
                             SUbj:	                       MANAGEMENT RESPONSE TO DRAFT PERFORMANCE AUDIT REPORT ON
                                                          USCG FY 2008 MISSIONACTION PLANS	             .
                             1.. Thank YQufor theopportunity to provide comment on thedraftperformanceauditteport
                             pertaining to the U. S.Coast.Guard's FY· 2008 Mission.Action Plans (MAPs). While.in.general
                             the CQastGu~dconcurs with thefmdings andreconnnendations contailled inthe report, it
                             important to note that these MAPs were prepared using the follOWing $tepsprovided in.DHS
                             guidance: iclentify control deficiencies, conduct root cause analysis, identify root cause based
                             actions, develop milestones and tasks, and approve the MAP.

                             2. To iml'toy~ the process and expectedresultstheServicehastaken several positive steps over
                             the past three months .to. address the issues identified in the audit. With the.Coast Guard
                             FinancialStrategy for TransfonnationMd Audit Readiness (FSTAR) pubUshedin March 2007
                             as our basis and in alignmetlt with thefmdingsoftheaudit, the Coast Guardisretining its
                             approaCh for financial·audit readiness to betterartieulate the critical path between our current
                             audit remediation efforts·and making financial statement assertions. The following steps provide
                             thenecessarystt'Uctuteandrequitements toreflnethen1ulti·year audit·readiness strategy.
                             SpeQifically,theapproach identifies the Coast Guard's need to:

                                        a, .map.(manci'li.statement captions, line· item.balances,.assertions, and.footnote. disclosures
                                        to·key business processes and to the financial and mixed systems through which the                                .
                                        transactions flow;

                                        b.ldentityassessable units and known wem<oesses and gaps in data quality and process
                                        documentation;

                                        c.. conduot a risk assessment of each assessable unit based on quantitative and qualitative
                                        factors. including.sign.ificance·of interdependencies within·the ·MAPs,.todetermine the
                                        prlorities for executing rernedlation anclbuHding assertions;

                                         d.. sumrnatizethecurrentstateoftheinternalcontrordocun1entation,weilknesses, and
                                         accountbalance information; tnestatusof the desisnand implementatlonofprocess controls;
                                                                                             ..   ~
   -
 Subj: MANAGEMENT RESPONSE TOTl-IE.DRAFTPERFORMANCE.                                      7000
 AUDIT REPOa! ON USCOFY 2008 MISSION ACTION PLANS


   the accuracy and yalidityof beginning balances; and the vetificationand validation

   completion;


   e.identify entity level controls, resource needs and preliminary timelines, as well as rertne
   strategies, revise MAPs,and revise/develop detailed project plans; and .                                I
   f. revise the FSTAR as appropriate to reflect revised project management structure and

   revised·management control program guidance.


3. The Vice Commandant ofthe Coast Guard chartered the Audit Readiness Planning Team
                                                                                                           I
(ARPT) to implement this next phase inouron~going efforts. Consisting ofeoast Guard, DRS,
and contract accounting and resource management professionals, the ARPT will develop the
revisedmulti-year entity-wide strategy to achieve financial statement audit readiness. The
                                                                                                           I
ARPT is scheduled toconclude·its·effort by the end·ofAugust 2008.                                          I
4. Coincidental to theperfortnanceaudit, the CoastGuard implemented the revised FSTAR
Standard Operating Procedures (SOP). The revised SOP describeslhe enhanced management
stl'lJctureand the roles and tespopsibilitjes ofMAP development·and monitoring requited of
process ownerscriticaltoaudit remediation efforts,. inclUding the verification and validation
steps required to support identification and closure ofcontrol gaps.

5. The Coast Ouardcontinues to invest cJttensive effort in aUclit remecli~tion. The abOVe actions
cleadyaddresslhe report'sreconunendationsandwill helpto strengthen. ongoingCoast Guard
audinemediationpractices. Ifyou have any questions concerning this response please contact
me, or your staffmay contact CAPT Ekulldayo Faux, Chief, Office of Financial Transformation
and Compliance, at 202~372 ..3717.
                                                #




                                                                 ,
                                                                 \




                                                2
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Management
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative Affairs
Chief Financial Officer
Chief Information Officer
Chief Privacy Officer
DHS GAO/OIG Audit Liaison
Commandant
Coast Guard Chief Financial Officer
Coast Guard OIG Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriation Committees, as appropriate
                                                '.'




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.                          .


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector GenerallMAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
